<html>
<title> - THE GOLDMAN ACT TO RETURN ABDUCTED AMERICAN CHILDREN: ENSURING ADMINISTRATION ACTION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                   THE GOLDMAN ACT TO RETURN ABDUCTED
                      AMERICAN CHILDREN: ENSURING
                         ADMINISTRATION ACTION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2015

                               __________

                           Serial No. 114-187

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-636 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Michele Thoren Bond, Assistant Secretary, Bureau of 
  Consular Affairs, U.S. Department of State.....................     4
Mr. David Goldman, co-founder and director, Bring Sean Home 
  Foundation (father of child abducted to Brazil)................    33
Captain Paul Toland, USN, co-Founder and national director, Bring 
  Abducted Children Home (father of child abducted to Japan).....    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Michele Thoren Bond: Prepared statement............     7
Mr. David Goldman: Prepared statement............................    39
Captain Paul Toland, USN: Prepared statement.....................    47

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Question submitted for the record to the Honorable Michele 
    Thoren Bond..................................................    56
  Prepared statement of the Honorable Steny H. Hoyer, a 
    Representative in Congress from the State of Maryland........    57
  Prepared statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas...........    58
  Prepared statement of the U.S. Department of Justice...........    61
  Washington Post article entitled, ``The State Department should 
    do more to address international abductions,'' August 12, 
    2015.........................................................    67
 
                   THE GOLDMAN ACT TO RETURN ABDUCTED
                      AMERICAN CHILDREN: ENSURING
                         ADMINISTRATION ACTION

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 11 o'clock, in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and let me 
express my apologies for the lateness in starting. We did have 
a series of votes. Who could ever anticipate or predict?
    So, again, I want to say how unfortunate it is for that 
almost hour-long delay. But thank you for your patience.
    I would like to welcome all of you to our fourth oversight 
hearing this year on implementation of the Sean and David 
Goldman International Child Abduction and Prevention and Return 
Act.
    The Goldman Act empowers the executive branch with powerful 
new tools and a myriad of ways to successfully resolve parental 
child abduction cases.
    Like any law, however, it is only good as its 
implementation. Historically, some 750 to 1,000 American 
children are unlawfully removed from their homes each year by 
one of their parents and taken across international borders.
    International parental child abduction rips children from 
their homes and takes them away to a foreign land, alienating 
them from the love and care of the parent and family left 
behind.
    Child abduction is child abuse. Its negative impact on the 
child and left-behind families can last for years, even a 
lifetime.
    Two of our witnesses today, like many in this hearing room 
and around the country know first hand the trauma, the tears, 
the excruciating pain and the longing and heartbreak of a 
parental child abduction.
    David Goldman's son, Sean, was abducted to Brazil and 
unlawfully retained for approximately 5\1/2\ years. Mr. Goldman 
tenaciously pursued every legal means of return including 
expert legal counsel in his quest to bring Sean home. Today, 
father and son are thriving and we will hear from them in Panel 
Two.
    Captain Paul Toland continues his heroic 12-year quest to 
bring his 13-year-old daughter, Erika, home from Japan. Captain 
Toland refuses to quit or to be deterred, despite years of 
frustration and setbacks. Such is this father's incredible love 
for his precious daughter.
    Our first hope, of course, is to prevent or at least 
mitigate the number of child abductions and the State 
Department is to be commended for implementing a provision of 
the Goldman Act and for taking other efforts as well including 
the one that adds children that a judge has determined to be at 
risk of abduction to a no-fly list.
    In 2014, we saw a decrease in the number of new 
abductions--150, as a matter of fact, fewer cases than the 
previous year--and I want to do a shout out to Rush Marburg on 
the prevention side who has done a magnificent job in this 
endeavor.
    But I am, frankly, concerned that the State Department has 
chosen not to impose any sanctions on any of those nations 
found to have engaged in a ``pattern of noncompliance.''
    The Goldman Act, however, requires the State Department 
action under individual cases that have been pending for more 
than a year if the foreign government has not been taking 
adequate steps to resolve the case.
    The Goldman Act also requires action when collectively a 
country has a high number of cases--30 percent or more--that 
have been unresolved for over a year or if the government is 
failing in their duties under the Hague Convention or other 
bilateral agreements or if their law enforcement fails to 
enforce, return or access orders.
    The Goldman Act not only shines a light on a country's 
record through annual designation of countries showing a 
pattern of noncompliance, it holds countries accountable and 
hopefully incentivizes systemic reform.
    Actions, as we know, from the law escalate in severity and 
range from official protests through diplomatic channels to 
public condemnation to extradition to suspension of 
development, security or other foreign assistance.
    The Goldman Act was designed to raise the stakes on the 
foreign countries in action or obstruction and move that 
country to end the nightmare of child abduction.
    In July, we received the State Department's first annual 
report on abduction and access resolution rates around the 
world. The annual report had some major gaps and misleading 
information, some of which were corrected by the supplemental 
data posted by the State Department in August.
    Tragically, in contravention of both the spirit and letter 
of the Goldman Act, the State Department failed to list Japan 
with more than 50 abduction cases among the 22 countries 
showing a pattern of noncompliance and therefore eligible for 
Goldman Act sanctions.
    This glaring omission, which can still be corrected today, 
sent the unfortunate signal that pre-Hague Japan cases were not 
a top priority.
    Cases like that of Sgt. Michael Elias, who has testified 
here--he is a New Jerseyan who has been denied any contact with 
his two children, Jade and Michael, after they were abducted to 
Japan in 2008.
    In September, the State Department sent to Congress its 
first 90-day report on actions it took to bring the 22 
countries most--to the resolution table.
    Those actions including the marches, judicial rulings--
meetings, I should say--and education efforts and meetings, all 
of which are necessary and of real value. Noticeably absent was 
the imposition of any number of meaningful sanctions, again, 
prescribed by the Goldman Act.
    I respectfully submit that this was a missed opportunity to 
convey to a pattern of noncompliant nations that the United 
States is absolutely serious about resolving parental 
abduction.
    The imposition of sanctions says we mean business and I 
would note parenthetically that sanctions, and I have done this 
in other laws that I have written including the Trafficking 
Victims Protection Act but also our Civil Rights Act, Title 9, 
which has made all the difference in the world in women's 
sports, always carried a penalty phase and that certainly got 
the attention of universities and colleges throughout the 
country that the Federal Government was not kidding and wanted 
changes in how these universities did business.
    Notwithstanding Section 103 of the Goldman Act, the report 
makes no mention of MOUs or bilateral agreements to resolve 
cases including and especially cases that existed prior to 
Japan's ratification of the Hague.
    I and many others have raised this concern for several 
years. I actually did a trip to Japan with Michael Elias' 
mother, the children's grandmother, and said if we don't get 
that right they will be twice left behind because they were 
less likely to find themselves a resolution to their cases 
because, of course, the Hague Convention is from the date of 
ratification onward. It does not have a look back provision.
    The report details the State Department's effort to 
persuade India to ratify the Hague Convention, a step that if 
not combined with an MOU to resolve current abduction cases 
which number about 75 today risks duplicating the extraordinary 
misery endured by left-behind parents after Japan ratified the 
Hague.
    If India ratified the Hague it will, like Japan, 
grandfather preexisting cases out of the convention resolution 
process.
    I would note the Bindu Phillips, who has been here, and she 
too has testified--mother of Albert and Alfred--has struggled 
with her ex-husband in Indian courts for the return of her sons 
for nearly 9 years--9 years--and every time she thinks she may 
be on the verge of a win in court, obviously, there is always, 
like in David Goldman's case another appeal to bleed her dry 
financially and to make it difficult to ever get her sons back. 
Ravi Parmar has been fighting for his son's return for 3 years.
    Section 201 of the Goldman Act also requires the State 
Department to conduct a review of individual cases pending 12 
months or more to discern whether the foreign government has 
taken adequate steps to resolve the case or whether actions are 
warranted.
    This individual case trigger for actions, as opposed to the 
pattern of noncompliance country trigger, despite a half dozen 
congressional letters from various Members of Congress asking 
for Section 201 reviews of egregious cases the State, to my 
knowledge, has not done a single review and perhaps, Ambassador 
Bond, you can enlighten us on that.
    I am encouraged by a press statement issued today by 
Secretary of State John Kerry in which he says clearly that he 
is looking to use all of the tools that have been prescribed by 
the Goldman Act as the beginnings of the next report take place 
and he said, you know, in his press release--and I do have it--
he says in his press release, and I think it is a very 
important point that there can be no safe haven for abductors.
    The State Department, Secretary Kerry says, will continue 
to use all the tools available to us to help those involved in 
international parental child abduction cases to resolve their 
disputes and move forward with their lives. So that is a very 
encouraging note.
    Now I would like to introduce Secretary Bond, first, with a 
very brief introduction and without objection your full resume 
will be made a part of the record.
    Ambassador Michele Bond serves as Assistant Secretary for 
Consular Affairs at the State Department. As Assistant 
Secretary, Ambassador Bond leads a team of 13,000 consular 
professionals in almost 300 locations across the U.S. and 
around the world who protect the lives and interests of U.S. 
citizens abroad, facilitate legitimate international travel and 
helps protect our nation's borders.
    A career member of the senior Foreign Service, Ambassador 
Bond has more than 38 years of diplomatic experience in Europe, 
Africa and Latin America including having served as U.S. 
Ambassador to Lesotho.
    Ambassador Bond, the floor is yours.

   STATEMENT OF THE HONORABLE MICHELE THOREN BOND, ASSISTANT 
SECRETARY, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Bond. Thank you.
    Chairman Smith, thank you for this opportunity to discuss 
international parental child abduction. This is one of the 
highest priorities to the Bureau of Consular Affairs and the 
Department of State.
    As Secretary Kerry noted in his statement on child 
abduction yesterday and as you have pointed out, the department 
will continue to use all the tools available to us to help 
those involved and to resolve their disputes and move forward 
with their lives.
    Mr. Chairman, thank you for your leadership on this issue. 
You have heard the testimony of my colleagues, Ambassador 
Jacobs, Deputy Assistant Secretary Christensen and Director 
Hand in previous hearings.
    You know that I lead a talented team of experienced 
professionals who work tirelessly to prevent abductions and 
bring children back home.
    My testimony today will summarize my written statement 
which I request be entered into the congressional record.
    The Sean and David Goldman International Child Abduction 
Prevention and Return Act of 2014 has given us additional 
leverage to resolve these cases. We have already put these 
additional tools to good use.
    We are proud of our contribution to the 247 returns in 2015 
and about 140 prevented abductions in 2015, and we recognize 
and accept the challenge of the 1,100 cases that remain open, 
some for many years.
    Mr. Chairman, many actions take place every day to prevent 
or resolve these heart-wrenching cases. Since implementation of 
the law, more than 140 children have been protected from 
removal from the United States.
    The law also provides the mechanism to streamline 
interagency efforts and we are fortunate to receive crucial 
assistance from our interagency partners.
    We share your goals of preventing abduction, ensuring the 
expeditious return of children to their homes and strengthening 
and expanding the Hague Abduction Convention.
    Let me briefly explain the role of the Office of Children's 
Issues within the greater context of how the Bureau of Consular 
Affairs advances U.S. foreign policy.
    The Office of Children's Issues provides policy guidance 
and coordination within the Department of State and the 
Washington interagency community to prevent child abduction. It 
safeguards the welfare of abducted children, returns abducted 
children to their places of habitual residence and helps 
parents resolve these complex cases.
    The Office of Children's Issues executes U.S. obligations 
under the convention as the U.S. central authority.
    It leads U.S. Government efforts both within the department 
and with other U.S. Government agencies to assist children and 
families involved in abduction cases in all countries and 
reviews applications to partner with countries that have 
acceded to the Hague abduction convention.
    My bureau leads the effort to engage governments on 
convention implementation, acceding to the convention and 
providing assistance to families involved in cases in 
nonconvention countries.
    Our number-one priority is the safety and protection of 
U.S. citizens overseas. This provides a little solace to those 
parents who are still waiting to see their children returned 
home. Only the safe return of their children matters.
    As a parent and as an assistant secretary of state for 
consular affairs, I pledge that my team and I will continue to 
work to resolve all abduction cases.
    That includes working with convention countries such as 
Japan to resolve abductions that occurred before our 
partnership under the convention took effect.
    We are actively engaged with Japan in these cases. 
Disappointingly few have been resolved with the return of an 
abducted child to the United States or through meaningful 
parental access.
    My colleagues in the bureau, throughout the department and 
at our Embassies and consulates abroad, press our foreign 
government counterparts on the issue of abduction and raise 
your constituents' cases at every opportunity.
    For example, we have requested the Government of India's 
assistance in resolving reported abduction cases. Special 
advisor for children's issues, Ambassador Susan Jacobs, 
Principal Deputy Assistant Secretary for South and Central 
Asian Affairs Ambassador William Todd and I all personally 
urged India to resolve reported cases in recent meetings in New 
Delhi and Washington.
    Additionally, officials at the U.S. Embassy in New Delhi 
are in regular contact with Indian foreign ministry officials 
on these issues.
    Mr. Chairman, let me again emphasize my personal commitment 
and my bureau's dedication to prevent parental abductions.
    The department at State and our Interagency partners are 
committed to the implementation of the law and to safeguarding 
and returning abducted children to their places of habitual 
residence.
    We are committed to ensuring parents have effective tools 
to resolve these cases in both convention and nonconvention 
countries.
    As always, I appreciate your interest, your feedback and 
your suggestions. I look forward to your questions.
    [The prepared statement of Ambassador Bond follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
  
    
                              ----------                              

    Mr. Smith. Thank you very much, Madame Ambassador.
    We're joined by Mark Meadows? Any comments?
    [No response.]
    Thank you.
    Let me just begin with some questions. First, in 2014 18 
percent of the left-behind parents had to overcome, when 
litigating for the return of their child in a foreign country 
what sorts of obstacles, I should say, have they had to 
overcome?
    Eighteen percent of the 1,467 cases this year were resolved 
with the child coming home and this includes resolved and 
unresolved cases--18 percent.
    Of the 1,781 cases that were resolved, only 34 percent were 
resolved with children returning to the United States. In my 
opinion, these are staggeringly low numbers. Are you, Madam 
Ambassador, satisfied with this return rate--actual return 
rate, not resolution where, you know, as you know there are 
criteria for closing a case when obviously a return is 
something we are looking to break out and hopefully effectuate?
    And what are you doing to change that rate in 2015? Again, 
the return rate I am talking about.
    Ambassador Bond. Mr. Chairman, I am not satisfied with that 
return rate and we are working with each of the countries where 
there is a single case in order to address and identify what 
more could be done to actually bring each individual child 
home.
    As you know, these cases are not identical in any way and 
so we are focused on the--on working with countries on the 
pattern of how they deal with these cases, how expeditiously 
and to what degree of well informed approach they have among 
their law enforcement.
    In their central authority, in their judiciary we are 
working to make sure that people understand the point of the 
convention, the goals of the convention, how it is supposed to 
work and we are investing a great deal of resources in the 
training and the exchanges that do, as we have seen through the 
years, that do lead to results in terms of better performance.
    Mr. Smith. Can I ask you, obviously, the report will come 
out late April--it will be the second report--and, frankly, 
when we saw the first trafficking in persons report, you know, 
there was some threadbareness to that one, which was greatly 
improved when the report--second year, third year, fourth year 
came forward.
    And my question is when it comes to the sanctions part, you 
know, a lot of notice has been given to countries that are 
noncompliant. The conversations, the training, I think are 
extremely important and can change hearts and minds and that is 
important.
    But at the end of the day, if they persist in these 
patterns of noncompliance and are obtuse to the heart cry 
coming from abducted children and their left-behind parents, 
are you planning on hopefully applying sanctions in this next 
round? You know, they begin--like I said, a lot of ample notice 
that it is in the law.
    I am sure you and others have conveyed that in your 
conversations that this is a sword of Damocles that hangs over 
them. We don't want to do it. We don't want sanctions.
    But if the record requires it they need to be imposed. Are 
you looking for that kind of evolution in terms of the 
imposition of sanctions in round two?
    Ambassador Bond. The actions that are described in the law 
are, as you--you have described them as a range that starts 
with a demarche and builds.
    I would argue that the fact is that there is a lot of 
strength in reiteration. There is a lot of strength in 
continuing, A, to raise an issue in order to emphasize how 
important it is to us and to raise it broadly so that 
individuals--it's not just, say, the minister of justice or the 
minister of one or two foreign affairs that are hearing about 
it but that a broad range of business people and others are 
getting the message that this problem exists because many 
people don't know about it and also the nature of the 
resolution that we are proposing that the different countries 
follow so that people understand what it is that we are talking 
about, what it is that we are asking for and what it is, in the 
case of convention countries, they have agreed to do.
    There is a period of time and it happened in the United 
States too during which you are trying to make sure that people 
understand exactly what this treaty requires.
    And as you may know, in the United States every time there 
is a child abducted here a packet of information is sent to the 
judge who is going to hear that case because most of the time, 
here and in other countries, a typical family court judge may 
never hear a Hague Convention case and if he or she does hear 
one it may be the only one they ever hear.
    And therefore it is important to make sure that they 
understand that this is different from what they are used to 
doing, which is handling custody decisions.
    So the engagement that we have and, you have said and, of 
course, I agree, that the education efforts are important, they 
are really fundamental.
    If you take, as an example, the countries where our 
principal problem is with the judiciary, those, in many cases, 
may be countries where we used to have problems with the 
central authority and now have developed strong, excellent 
even, communication and coordination and understanding with the 
central authority.
    But we are not seeing the results that we need in terms of 
a prompt focused understanding of what a Hague Convention court 
case is.
    And so in that case the focus has to be on the judiciary 
and on making sure that the judges understand what the law is 
and understand how to apply it, understand that this is not a 
custody decision that we are talking about. It is a 
jurisdictional one and so forth.
    So that is where the attention is focused if the issue has 
to do with a judicial understanding and compliance with the 
law.
    If the problem in a particular country has to do with 
enforcement, and we have countries like that where the judges 
are making what we consider to be very good decisions, and then 
we don't see the enforcement of the return, there then you are 
focusing your attention on the people who are responsible for 
that.
    In almost every case, it is important to be doing a lot of 
public outreach and a lot of looking for ways to highlight this 
issue and the importance of it in the press, again, in order to 
get understanding and acceptance among the public of what is 
going on so it doesn't look like their children are being taken 
to another country.
    So all of the actions that are suggested in the law are 
absolutely on the table and the countries that we are talking 
to know that.
    The fact is, though, that the focus is on who is it that is 
creating the problem here. Is it judges not knowing what to do? 
Is it law enforcement not being directed to pick the kids up 
and arrange for them to get on a plane and come home? And you 
focus on that, on the people who aren't getting it and finding 
ways to get them to do their jobs better.
    So I can tell you absolutely honestly and clearly that 
there are no actions that are not on the table but the focus is 
on the actions that are directed at the problem that we see in 
a particular case or broadly in a particular country in order 
to turn that around and, again, I would say that there are a 
number of countries where we used to have real problems with 
the central authorities and now we have very, very good 
understanding with the central authorities.
    So it is a fact that the efforts that have been made over 
the years do have an effect.
    Mr. Smith. Can I just ask you again, you know, we had the 
same issue dealing with the Trafficking Victims Protection Act 
and when we said prescribe minimum standards we often found 
that law enforcement was the weakest link because they were 
often complicit at the local level with the traffickers in the 
abuse.
    But we held the entire government, because they are part of 
the government, even though they are independent and judges 
even more so, to task. And Tier 3 would be netted out if 
there's a country that--where there is all kinds of 
collaboration with the traffickers, and I would argue that we 
are dealing with very smart people.
    Our interlocutors in Brazil, in Japan, in India, these are 
some of the most educated people that you--you know, you are on 
the other side of the table that you speak with. They will 
understand to a great extent if sanctions are forthcoming.
    One of the biggest lessons I learned on trafficking was 
when Israel and South Korea were designated Tier 3. We don't 
have any better allies.
    We have similar and as good but no better allies in the 
world than Israel and South Korea. George Bush put them on Tier 
3. They could have lost security aid, economic support but 
especially security aid and there was a very serious 
contemplation.
    I have never seen two governments alter their Behavior, 
crack down on the brothels where trafficked women were. In the 
case of South Korea they passed some remarkably effective laws 
to end human trafficking there, and the trigger was the 
placement followed by the very credible threat that those 
sanctions would be used.
    I would ask you, plead with you, use the sanctions. Pick 
out some countries--Japan, certainly, and I know there is a 
reluctance to single out Japan. First and foremost, put them on 
the pattern of noncompliance and maybe you can do that today.
    But, certainly, if things don't change and maybe if you 
could answer this question, if you made the designation today 
based on the 50-plus cases, would you make that designation a 
pattern of noncompliance for Japan?
    Ambassador Bond. So I want to be sure I understand the 
question. Japan is absolutely a country that is--they have made 
a good start at--after becoming, after joining the convention 
we think that they have made a good start.
    We are watching very closely to see what they are doing 
this year with cases under the--under the Hague, the convention 
cases, and they will certainly be cited if they are not 
performing.
    The--we are also very focused on the cases that were pre-
Hague but under the description--the requirements for their 
report those didn't get reported in April. So that doesn't mean 
they are not important and it doesn't mean we are not focused 
on them.
    The--as for the question, you know, we have seen examples 
of countries who are responding exactly as you are describing 
Israel and South Korea having done in terms of writing new 
legislation and looking at new ways to address problems that we 
were pointing out to them and pressing them to resolve.
    And so Slovakia is an example where they are--they have 
just passed a new law. It limits the number of appeals, 
requires courts to speed up their cases.
    Slovakia has said that they will join us in efforts to 
persuade other countries, particularly Middle Eastern ones, to 
join the convention. Slovakia--they are going to be the 
president of the EU starting in July.
    Mr. Smith. They also had the Court of Human Rights--
European Court of Human Rights come down very hard on them in 
two of those cases.
    So there was, thankfully, additional pressure on Slovakia. 
Let me just ask you, because I know your time and we do have 
two members that I would like to get to, if Captain Paul 
Toland's case is unresolved by next year and there are 50 other 
cases, his is among the most egregious I have ever seen.
    Got very bad advice from the JAG as to how he should handle 
his case. He was, obviously, there deployed to Yokohama as part 
of the defense of Japan--the joint defense that we are so 
happily engaged in and I certainly support that.
    If his is unresolved, won't that trigger in and of itself, 
and then you add the other 49 cases--plus cases--for putting 
Japan on the noncompliant list, regardless of any progress they 
make post-Hague ratification? I mean, these--I mean, that is 
why when I went to Japan years ago I said if you don't have an 
MOU, if we are not working those cases aggressively they will 
fall by the wayside and the agony will be on words for those 
who feel left behind a second time.
    So if his case is not resolved, does that trigger it, your 
opinion?
    Ambassador Bond. We are, as I----
    Mr. Smith. We will then be in the 13th year.
    Ambassador Bond. We are considering all options available 
to assist the parents and we discuss within the department and 
with other parts of the U.S. Government actions that might make 
a difference in a particular case or the behavior of a country 
toward the general group of cases.
    So there are no options that are off the table and the 
report--the next second annual report under the new law will 
reflect the conduct of all of these countries, Hague and non-
Hague countries, in terms just as is required.
    Mr. Smith. But again, I would hope if you could broadcast 
that signal to Japan--you could do it here today, hopefully you 
will--that Captain Toland and others like him, that this is a 
red line that ought to be laid down before Japan.
    You know, Japan will be hosting the G-7 in the spring. 
Hopefully, these could be resolved by then. Otherwise, it ought 
to be a major issue discussed. I'm not sure if that is being 
contemplated or not. But maybe you could shed some light on 
that. Then I will go to Mark Meadows.
    Ambassador Bond. I don't know about the agenda for the G-7. 
But it is an issue that we raise consistently with Japan. They 
know this is one of the major bilateral issues that we want to 
see resolved, all of the cases, whether they began after Japan 
joined the convention or are among the dozens that were already 
underway before Japan joined the convention.
    The fact that Japan is a member of the Hague Convention 
reflects the power of persistent diplomacy by the United States 
and by other countries for the children that had been abducted 
to Japan and that does change the playing field for all of us 
because----
    Mr. Smith. And cases are being resolved under the Hague 
vis-a-vis Japan?
    Ambassador Bond. We are pushing for that. There are--there 
are two cases where judges have ordered the return of children 
to the United States.
    Mr. Smith. Out of how many? Two cases out of----
    Ambassador Bond. Of cases that--since they joined the Hague 
where judges have ordered the return. That has not yet been 
enforced, however. So we are working to get those kids home.
    Mr. Smith. Now, is that a law enforcement problem or----
    Ambassador Bond. It is--well----
    Mr. Smith. Or is it under appeal?
    Ambassador Bond. It is a complex--in both of the cases 
there they are both a little bit different but the issue is 
making it clear to all of the authorities in Japan and as you 
rightly point out, you know, the police or the judges or 
whoever they are part of the government and our engagement is 
with the government as well as with the particular part of that 
government that we think needs to special attention.
    So I am hopeful that we are going to see returns to the 
United States under the Hague from Japan. We are pushing for 
that in those two specific cases.
    Mr. Smith. Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ambassador Bond, thank you for being here. Obviously, we--
this is not the first hearing that we have had on this matter. 
Your colleague there behind you, she has been here before, and 
I believe that you have a real commitment to return these 
children to their parents.
    The frustration becomes is--and the reason for the Goldman 
Act originally was the type of soft diplomacy that you have 
described over the--really, in much of your testimony most of 
it has been soft diplomacy.
    And what you are referring to was really the whole reason 
why the Goldman Act was passed by Congress was to give you 
additional tools beyond that soft diplomacy and the frustration 
that has been evident in this hearing as well as other hearings 
is the fact that some of the tools that have been afforded the 
State Department are not being used. And so there is a law that 
has been passed.
    Now, I want to make sure I am clear with you and with some 
of your other colleagues. I know your commitment is, as you put 
it, a number-one priority.
    The frustration on parents is each day, each birthday, each 
time that goes by they don't see that commitment and it is--
where it is a priority for you it is the life for many of these 
parents and there is the disconnect.
    So I guess my question, and I am going to be very direct, 
has the State Department delayed or cancelled one or more 
bilateral working relationships or official or State visits 
with any country based on a lack of cooperation?
    Have you done that? Can you point to any specific example 
where that has been done based on their inability to help us 
out? Has that ever been done?
    Ambassador Bond. Mr. Meadows, I have to admit that after 38 
years at the State Department I don't share your sense that 
soft diplomacy doesn't--just doesn't get the job done.
    Mr. Meadows. I didn't say that. You misquoted me.
    What I am saying is you describe soft diplomacy as what you 
are engaging in. I said the Goldman Act gives you additional 
tools and I am asking one of those tools did--have you--have 
you done that? Is there a case that you can point to?
    Listen, there is no one--I made a living in soft diplomacy 
so I understand the benefits of soft diplomacy but I also 
understand when it doesn't work.
    Ambassador Bond. Diplomacy is--I wouldn't even call it 
soft--it is a powerful tool and I am sure we agree on that.
    Your question about whether we have cancelled any 
bilateral----
    Mr. Meadows. Delayed or cancelled, yes. I am giving you the 
benefit of the doubt. Have you said that we are not going to 
have this bilateral working or official or State visit because 
you haven't complied? Have you done that?
    Ambassador Bond. As an example, I am not aware that we have 
done that.
    Mr. Meadows. I am not aware of any either. So let me go on 
to the next one because I have got a limited time here.
    Have you withdrawn or limited or suspended any U.S. 
development aid because of noncompliance? I am not aware of any 
but we are having a hearing. So are you aware of any?
    Ambassador Bond. I am not.
    Mr. Meadows. Okay. Have we withdrawn, limited or suspended 
any U.S. security assistance for any of these countries that 
are noncompliant?
    Ambassador Bond. Not to my knowledge.
    Mr. Meadows. Yes. Have we withdrawn, limited or suspended 
any foreign assistance to a central government of a country 
relating to other economic support?
    Ambassador Bond. I am not aware of any.
    Mr. Meadows. I am not. All of those are tools that are 
available to you should quiet or soft diplomacy not work. And 
yet the parents are not seeing any of these being deployed.
    So let me, in light of your answers and knowing that you 
have a limited time let me give you an analogy. I assume that 
you occasionally exceeded the speed limit in your vehicle.
    Ambassador Bond. Yes.
    Mr. Meadows. Okay. Well, you are on the record. Okay. All 
right. We won't say where.
    There is a place next to where I live where there is a city 
policeman that is there, that literally will give you a ticket 
the minute you exceed the speed limit. And you know what 
happens? I don't speed through that town.
    And yet there is another place where we don't employ any of 
the tools that are available to our law enforcement officers, 
and I am not quite as conscious about my speed.
    And so I offer that analogy to you because here is what 
many of these foreign governments are seeing is that we passed 
a law, that you bring it up when you talk to their Ambassador, 
and I believe that you do because honestly I have checked with 
some of them and you do bring it up.
    But they see no consequences to their action or 
noncompliance, and that is the frustration you are hearing from 
this committee.
    That is the frustration you are hearing from parents and, 
hopefully, that is the frustration that will be eliminated with 
the new report, and as you employ some of the tools that have 
been granted to you by this Congress to make sure that we are 
effective. Does that make sense?
    Ambassador Bond. Yes.
    And Mr. Meadows, I think it is important to note that we 
are seeing action in--even in some of the countries that are 
the most difficult to work with at this time. The--for 
example----
    Mr. Meadows. We are seeing----
    Ambassador Bond [continuing]. When I most recently met with 
the Brazilians for an annual bilateral discussion, and I was in 
Brasilia for that, and they talked about legislation that they 
are working on.
    So they are looking at ways to try to address the great 
wall----
    Mr. Meadows. But do you see the disconnect there? What you 
are seeing is maybe progress and action in terms of the 
potential for returning these kids. All the parents see is the 
kids don't come back. And so on your matrix of success you are 
seeing progress.
    On theirs, they are seeing none. And I think that that is 
the difficulty here and that is what we have to address and 
hopefully this law will give you the tools to start to use 
short of sanctions--you know, I am not one--I don't like to 
employ sanctions.
    But there is a number of other tools that the Goldman Act 
allows the State Department to employ that they haven't done, 
and with that I will yield back, Mr. Chairman.
    Ambassador Bond. Thank you.
    Mr. Smith. Thank you.
    Mr. Clawson.
    Mr. Clawson. Thank you for coming, Ambassador, and I think 
your job is a wonderful way to spend a life helping people and 
families like this. So congratulations and thank you for that.
    Since I have been here in Washington, DC, we have talked 
about trade a lot. We just did the TPA agreement. We are now on 
the verge of the TPP agreement and so let me give you just a 
little bit of context, Ambassador, why I bring that up.
    The U.S. is, roughly, a third of the GDP in the world, a 
little less than that. We are everyone's engine for economic 
growth and prosperity. No one does anything to lift up the poor 
in their country without trading with us, basically, for all 
intents and purposes.
    Our trade deficit every month is $40 billion. That is the 
deficit every month--$40 billion, roughly. If the price of oil 
goes up, that goes up a little bit.
    And so we are the economic engine for everyone, which 
creates leverage like I don't know--you know, every negotiated 
relationship in the world is based on leverage, as far as I can 
tell, and if that $40 billion a month doesn't create leverage 
with people I don't know what does.
    We see Japanese-made cars. We see Korean-made cars. We all 
go to Wal-Mart. That's 90 percent Chinese-made goods, roughly.
    We know what the Indians sell here, the Brazilians. I mean, 
I go down--when I went down the list today as I was reviewing 
the data for this committee, I looked at all these people that 
we have enormous economic leverage. They cannot live without 
us.
    Now, if the administration is not serious enough to take 
their bacon away then what are we all sitting around here 
talking about?
    We could solve corporate espionage tomorrow. We could solve 
kidnapped children tomorrow, in a month--one Executive order. 
Give our kids back or you don't get to sell your cars over 
here. Give our kids back or you don't get to sell your software 
over here. And if we don't do that how can we say we are 
serious? Because then we just send the money--and by the way, 
it costs--all those imported vehicles just cost good-paying 
jobs for hard-working Americans.
    They just go away anyway. So we let our jobs go away at $40 
billion a month and to add insult to injury they don't have to 
bring our kids back.
    Now, I am not getting this. I am new to it. I hear what you 
all are saying about, you know, cancelled trips and cancelled 
that.
    But as long as they are sending billions of dollars in 
here, making a living on our economy, and we are never doing--
we are never using that leverage I don't see this changing. I 
really don't.
    And so, you know, anything I can do to help but as a former 
business executive, you know, we had plants all over the world. 
These are nice people in these countries.
    But until we hit them in the pocketbook nothing is going to 
happen, in my view. And so if you will take that back. Now, if 
my world is too simplistic and you are seeing something 
different than I am seeing, let me know.
    But the only thing I think these folks will understand is 
if we take a shot at where it hurts and that is in the trade 
agreements and it can't go forever.
    I mean, we could do it tomorrow, in my view. This is all 
very, very solvable as soon as we take a shot at their imports 
that come into our country.
    Am I--you know, sorry for the passion here but am I--am I 
too simplistic in my--in my view here, Ambassador?
    Ambassador Bond. Mr. Clawson, when I was working on the 
same issue 10 years ago, the countries that I was most focused 
on were Switzerland and Germany and Japan--been out there. 
Switzerland and Germany aren't on the list anymore because we 
have a very good working relationship.
    We are good Hague partners. If children are taken, they 
come home. Very often children don't get taken because the 
advice that the parent gets who is kind of looking into--maybe 
checking with a lawyer, here's what I am thinking of doing--
they are told don't even bother, your children will be brought 
right back.
    Now, when we were originally talking with Switzerland and 
Germany 10 years ago there were judges in those countries that 
were saying why would I return a kid to the United States--it 
is better to grow up here in Germany and this child has a 
German passport and a German mother.
    So I am not interested in the Hague Conventions.
    That isn't true anymore. So I can't agree with the idea 
that the only thing that anybody listens to is a threat of 
financial harm.
    I completely agree that the tools that are written into the 
new law are valuable ones and that they are ones that have to 
be under consideration for use, and they are.
    But I do not agree that the best way to approach an issue 
is to say well, all right, you know, you have had 6 months and 
we told you these sanctions were out there so now we are going 
to come out with guns blazing.
    Mr. Clawson. Remember--remember, Ambassador, most of these 
countries don't allow our products into their countries. So you 
have people with enormous import tariffs.
    We don't have any import tariffs on what they ship in here. 
We can't ship product into their country that would help the 
American worker and yet, you know, billions of American dollars 
go to their country every months and we are going to talk for 
years about bringing back the kids?
    You know, that may be success in your all's view but that 
is too slow in my view, particularly when I got all the 
leverage. I got all the leverage because they are selling to 
me.
    We got this big trade deficit which creates the leverage, 
and thank you for your hard work and I yield back.
    Ambassador Bond. Thank you.
    Mr. Smith. I want to thank Mr. Clawson, who is a very 
accomplished CEO, for that breath of fresh air. They do listen 
and stand up and take notice and, I believe, are moved.
    You mentioned, Madam Ambassador, the--Germany. Germany, 
according to the figures put out by you guys, has a abduction 
case resolution rate of 27 percent--4 percent better than 
India, which is on the noncompliant list.
    Twenty-seven percent doesn't sound all that good to me. So 
I wouldn't lift up Germany, with all due respect, when they 
have such a poor resolution rate.
    Let me also--in Switzerland, you know, we didn't have any 
cases. The department didn't cover abductions to Switzerland 
because we didn't have any last year. But Switzerland is known 
internationally for not complying with the text of the Hague 
Convention and relitigating best interest determinations.
    So, again, I am not sure that is a stellar example to be 
pointing to either. I do have few questions and then we will 
move on to panel two.
    How does Japan's ratification of the Hague Convention help 
resolve any of the 50 pre-Hague cases? Again, I do hope if you 
have an opportunity to listen or at least read his testimony 
Captain Paul Toland will be next at the panel.
    But have any of them been resolved? You mentioned two that 
are post-Hague and they are not even returned yet, which 
clearly begs the question as to delay is denial.
    But none of those--have any of them been resolved and are 
we working on a MOU or bilateral agreement with Japan now for 
those pre-Hague Convention?
    Ambassador Bond. The pre-Hague families, of course, have 
only the option of requesting access under the Hague and there 
a number of left-behind parents who have filed requests for 
access and that is, you know, individual cases. I actually am 
not in a position----
    Mr. Smith. Again, underscoring why there needs to be an 
MOU. I mean, access--while that may be nice in the context it 
is not what is being requested.
    Ambassador Bond. It's not what they want. Right. No, we are 
talking to Japan about how can we have a framework, a structure 
agreement for addressing the cases that don't fall under the 
Hague Convention.
    Mr. Smith. When do you think that framework might be 
forthcoming?
    Ambassador Bond. I don't know.
    Mr. Smith. Any sense? And, again, delay is denial. Having--
through contacts and long conversations with so many left-
behind parents, frankly, started with David Goldman, the tears 
are--you know, flow every day. Delay is denial. If you could 
get back to us with when that might occur and with whom--who 
are your interlocutors.
    Ambassador Bond. We are talking to the Japanese very, very 
consistently about resolution of the cases that predate the 
convention. So we absolutely are focused on trying to find 
resolution in every one of those cases.
    In some--in some of them it may be that access may lead to 
a resolution as the children are able to reconnect with parents 
that they have lost contact with through the years.
    Mr. Smith. Let me just shift briefly to Brazil, and it was 
great to be with you at the press conference with Dr. Brann, 
Jared Genser, David Goldman and pressing for the return of Nico 
Brann.
    As you know, Federal Judge Arali Maciel Duarte ruled that 
Nico Brann had been in Brazil 2 months, far less than any 
prescribed by the Hague Convention and was well settled and 
would not be returned to the U.S. despite admittedly illicit 
abduction that took place in Texas.''
    And I've seen the court papers. His wife, that is to say 
Dr. Brann's wife, had agreed that this wouldn't happen--that 
they were coming back from a so-called vacation. Dr. Brann is 2 
years into his abduction fight.
    Devon Davenport is 6 years in his case. He has won at every 
level and yet he can't get his daughter home. Quiet diplomacy, 
it seems to me, has not worked.
    David Goldman, you know, was well over 5\1/2\ years in his 
quest and through the grace of God and a lot of effort--thank 
God he was able to get his son back. But these others have not 
been 6 years that now exceed David's time.
    Why isn't there a sanction--I mean a sanction--against 
Brazil? I don't understand it.
    Ambassador Bond. Well, we are--we are working to get those 
kids home. We are working to make sure that the Brazilians 
understand that they have got to improve--find a way to improve 
their judicial process. It is designed to permit a lot of 
appeals but as a result they are not living up to their 
commitment to turn these cases around and get the kids home.
    And so we agree--Brazil's attorney general, as you know, is 
filing an appeal of that judge's decision in the Brann case 
because the Government of Brazil agrees that judge was wrong.
    Mr. Smith. I understand you will have to leave soon. So I 
will submit a number of questions. But just a couple of final 
ones just to conclude.
    On extradition, an extradition request--tell the other 
country we are very serious about resolving abduction. This is 
especially helpful in non-Hague countries where abduction is 
not taken seriously.
    The Goldman Act lists extradition as an action the State 
Department should be taking in concert with the Department of 
Justice.
    How many extradition requests are pending on abduction 
cases? Are there any pending in India, a non-Hague country 
where 75 open long-pending cases at the end of the year, about 
half are more than 5 years old--I mentioned Bindu Phillips 
earlier, who I have gotten to know very well--and her case is 
just filled to overflowing with fraud.
    The police in her township--it is not in my district--have 
been--have done yeoman's work in documenting how she was 
defrauded as well as adding additional pain to the abduction 
itself because she was also ripped off, stolen from.
    What is being done vis-a-vis extradition?
    Ambassador Bond. Mr. Chairman, the issue of extradition of 
U.S. Government requesting the extradition of someone to the 
Unites States is a decision that is made by the Department of 
Justice and so I really would have to refer you----
    Mr. Smith. Oh, I understand that.
    But is it something that your office weighs in or the 
Office of Children's Issues? I mean, they certainly would look 
to you for guidance. I mean, on Bindu Phillips it think there 
ought to be an extradition done in that case.
    And certainly a thumbs up--an admonishment from your office 
would go a long way to sharpening their focus because obviously 
they have a lot of cases and prosecutorial discretion that they 
have to deal with in terms of what cases to take.
    Ambassador Bond. Yes, and it is absolutely one of the 
options that is out there for cases where we think and Justice 
agrees would make a difference.
    Mr. Smith. But you know of no case as of now?
    Ambassador Bond. I don't.
    Mr. Smith. Okay. Could you get back to us if there is such 
a case of making its way through?
    [No response was received prior to printing.]
    Mr. Smith. Let me also ask you with regards to India is a 
MOU or bilateral agreement being contemplated there? Because I 
know there is a great push, have them sign the Hague. But, 
again, that just grandfathers out all of those 100 children, 75 
to so cases, including Bindu Phillips.
    Ambassador Bond. Right. Yes, and as you say, we are hearing 
very positive comments from the Indians with whom I also had 
meetings this month here in Washington about joining the Hague.
    They recognize the fact that there are a lot of cases and 
that that structure provides a way to address these and resolve 
them. So we would also then be talking to India about how are 
we going to resolve the cases that predate the convention.
    Mr. Smith. Again, the argument was made as to why no MOU 
for Japan was that the atmosphere would be so improved under 
Hague that it would lead to possible resolution of those cases.
    Again, has any of that happened? Are they looking to 
resolve Captain Toland's case?
    Ambassador Bond. I know, as I mentioned, that some of the 
parents have submitted Hague access requests and to the extent 
that they are able to resume regular contact with their 
children that may well lead to actions that actually bring the 
children home, especially if the children are older and in a 
position to express their own interests in where they want to 
live or where they want to travel.
    Mr. Smith. Let me just ask you finally, and this is 
regarding India and maybe other countries as well. But your 
reports to Congress this year and letters to left-behind 
parents, and I have one here which we can share with you, 
showed some confusion regarding the application trigger 
recounting a case against a non-Hague country such as India.
    When desperate left-behind parents contact you they are 
told there has to be an additional application procedure for 
their case to count as ``unresolved'' but that the content and 
the process for the application is kept secret.
    One enquiring parent was told the response to her direct 
questions regarding an application has not been submitted--that 
is from the letter--that the State Department will do so when 
appropriate.
    For non-Hague countries the Goldman Act starts the clock 
the moment the State Department formally raises the case by 
name with the country.
    What additional requirements have you added, if any, for an 
application and how can you fill them immediately in India? And 
we will share with you this letter if you would like to take a 
look.
    Ambassador Bond. I am not aware of----
    Mr. Smith. The family came away confused.
    Ambassador Bond. Yes. I am not aware of any additional 
requirements that are asked for parents whose children have 
been abducted to India.
    So, you know, I don't know whether there was a 
misunderstanding in what you are describing or a failure on our 
part to communicate clearly but there aren't any, as far as I 
am aware, additional requirements that are imposed on left-
behind parents whose children are in India.
    Mr. Smith. Right. I know you have indicated you need to 
leave. Is there time for Sheila Jackson Lee to ask a question?
    Ambassador Bond. Of course.
    Mr. Smith. Thank you. Yield to the gentlelady from Texas.
    Ms. Jackson Lee. Let me thank the chairman for his kindness 
and the ranking member of this committee in this important 
hearing.
    And I thank Secretary Bond for your presence here today. I 
dashed from the floor so thank you for your patience.
    But I want to just hold up a face of mothers that have 
encountered challenges and difficulties even as this law has 
been passed.
    And I would like to be--I think all of us would like to be 
a help to the administration, to administrations plural and to 
these families.
    So I, first, would like to get from you a sense of the 
importance of the law being enforced through judicial and law 
enforcement education.
    It seems that there is a difficulty. One case comes to mind 
where the court said I don't have jurisdiction--I am going to 
give it to Monaco when the children are U.S.-born, the mother 
is U.S.-born and a court is advocating their responsibility.
    What do you think we can do with the education about the 
enforcement of this law?
    Ambassador Bond. Well, one very valuable important tool 
that we have in terms of our education efforts is our network 
of Hague judges, Federal and state judges who are experts on 
the Hague and are prepared and very actively go out and talk to 
their counterparts in other countries in order to address very 
directly the questions that they might have about how this 
process works and to reassure them about how the process works 
in the United States.
    So that is one of the education measures that we have. We 
also have brought scores of foreign judges and prosecutors to 
the United States to be--to have the opportunity to meet their 
counterparts and to understand how the process works here and 
to exchange different cases they worked on and just talk, you 
know, robe to robe, if you will, about how the process works 
for them, how they understand it and how the American judges 
handle the same cases.
    So I think that is very much at the heart of the work that 
we are doing working also with the Hague permanent bureau, 
which has experts stationed in different regions of the world 
who also work to support different governments to make sure 
that they understand what they are supposed to be doing and 
that they get it right.
    In Brazil next week there is going to be a judicial 
training program that is being organized with our support by 
the Hague permanent bureau.
    Ms. Jackson Lee. I am on the Judiciary Committee and I 
think the education is a problem and I think also it might be 
helpful if the Justice Department joined in with the State 
Department as it relates to the judicial enforcement.
    Again, that is part of what you see in the understanding. I 
guess my concern is that the Goldman Act has not been as 
strongly enforced as the intention was behind the passage.
    How do you--do you think a collaborating with the Justice 
Department on the enforcement end or would be--would be 
helpful?
    Ambassador Bond. Congresswoman, we actually do collaborate 
very closely with the Department of Justice. We work very 
closely with the FBI on--especially in blocking abductions of 
children from the United States but also in addressing 
different cases, and Justice is very much involved in the work 
that we are doing, the interagency work, on preventing the 
abductions and also on working to effect returns.
    So I absolutely think that greater coordination with 
Justice is a good idea. We have--twice a year we have a 
specific interagency meeting which includes the Department of 
Defense.
    It includes Justice, DHS and others--State, of course, 
because we lead it--to talk about what more we can be doing as 
a government to address this issue and to prevent the 
abductions but also to address the situations of the families 
that are already caught up in this.
    Ms. Jackson Lee. And you can imagine that is very painful 
and I think we can only judge ourselves by the numbers of 
children that get reunited legitimately or legally with those 
parents who found themselves in an international quagmire and 
they just--whether they have lawyers here they are just 
grounded by this huge umbrella of international affairs that 
can really be insurmountable for must an individual who lives 
in Iowa, an individual who lives in New Jersey or Houston or in 
the state of Texas--just insurmountable.
    So let me--let me ask this. In those meetings the FBI 
independently is there with the DOJ? Is that the--is that the 
enforcement arm--the FBI?
    Ambassador Bond. Yes, FBI is also there.
    Ms. Jackson Lee. Then can you--I think the question would 
be, and we have the greatest respect for the mountain of 
responsibilities our law enforcement have and we thank them all 
for their service--but we wonder whether or not there is an 
educational issue there and what do you, the State Department--
who is the overseer, if you will, of the success stories?
    How much--how much enforcement is the FBI engaged in? Are 
these cases high priority cases? Can we determine how many 
cases in the law enforcement term have been made by the FBI 
using the law and do we need now to assess that part of it, the 
enforcement, that then brings these cases before the court?
    Ambassador Bond. Well, we work, as an example, very closely 
with the FBI and local law enforcement when we are notified by 
a parent that that person believes that there may be an 
abduction in progress.
    We have 24/7 operators who are--they are not operators, 
they are officers who are trained in abductions who are 
available to take calls if people call in and say I just came 
home, my wife is not here, she left a note, I think she is 
planning to fly out with the kids.
    Our officers are able to give very immediate direct 
instructions to the parents. If they don't have a court order 
they need one and they are told exactly what to do and we hook 
up with CBP, with the FBI, with local law enforcement in order 
to act--to interdict that abduction. So that is an example of a 
process that works very well.
    You spoke, and it is absolutely true, to the challenge to 
the average citizen of understanding, you know, what do I do 
now if my child has been abducted to a foreign country that I 
may not even know that country very well and that is why we 
have a team of officers working in our Office of Children's 
Issues, the prevention team but also the abductions team that 
they are a part of, to provide information to the families that 
are caught up in this nightmare and to make sure that we're 
well linked up with the central authority in the other country 
if it's a Hague partner and to follow up on the case and 
provide the advice and the guidance that we can for non-
convention cases to help people identify a lawyer in the other 
country and understand what their options are.
    Ms. Jackson Lee. Let me add--and I appreciate that but let 
me add and hopefully I am being helpful to this committee of 
requesting that we get a list of the cases--active cases that 
the DOJ and working with this international law enforcement are 
acting upon now.
    [The information referred to follows:]
  Written Response Received from the Honorable Michele Thoren Bond to 
 Question Asked During the Hearing by the Honorable Sheila Jackson Lee
    We routinely communicate with law enforcement on possible criminal 
charges and extradition requests on international parental child 
abduction (IPCA) cases. However, the Department of State does not have 
access to a list of active IPCA criminal cases with the Department of 
Justice and international law enforcement. For this information, we 
would refer you to the Department of Justice.

    Ms. Jackson Lee. It is interesting, as the chairman has 
taken the lead, the ranking member--I am on Judiciary and 
Homeland Security, two of the departments that you mentioned--
so I think there is an opportunity for a partnership here but 
to get the list of cases, active cases and then the second 
would be the list of cases that have resulted in the 
extradition or the return of these children because the most 
instances is children.
  Written Response Received from the Honorable Michele Thoren Bond to 
 Question Asked During the Hearing by the Honorable Sheila Jackson Lee
    We do not have access to a comprehensive list of IPCA cases 
involving the extradition of the taking parent or return of the 
children as a result of criminal charges against the taking parent. The 
following are illustrative cases that we are aware of that fit these 
criteria; however, we would refer you to the Department of Justice for 
more comprehensive information:

        <bullet>  Mexico, 2016--One child was returned to the United 
        States under the Hague Abduction Convention after the child's 
        aunt obtained guardianship following the taking parent's 
        alleged murder of the child's mother and the child's abduction 
        to Mexico. Subsequently, Mexican officials arrested the taking 
        parent for U.S.-based murder charges.
        <bullet>  Kingdom of Saudi Arabia, 2015--Two children were 
        returned to the United States after Saudi authorities acted on 
        an Interpol Red Notice against the taking parent for 
        international parental kidnapping charges.
        <bullet>  Ghana, 2014--Two children were returned to the United 
        States per a Ghanaian court order. German authorities 
        subsequently arrested the taking parent on state custodial 
        interference charges and the taking parent was extradited to 
        the United States. The taking parent's travel to Germany was 
        unrelated to the abduction case.
        <bullet>  Spain, 2013--One child was returned to the United 
        States per a Spanish court order after the taking parent was 
        arrested on federal international parental kidnapping charges. 
        Subsequently, the taking parent was extradited to the United 
        States.

    Ms. Jackson Lee. I think the intent of the Goldman Law was 
to stop the bleeding. We were just amazed at how many cases--
how many families had experienced this and with their own 
domestic-based lawyers--some may have international 
experience--they just were going up against really the firewall 
of sovereignty.
    And we were trying to find a way to pierce that and give 
some hope to individuals. Stories that we've had before this 
committee--I have had the privilege of sitting in on this 
committee--were ones where the family wound up in a domestic 
court in California, for example, and then completely 
obliterated in terms of that case, giving up jurisdiction.
    I don't know how--I am just baffled, as I conclude, how a 
local court ignores the citizenship of the children, which are 
U.S. children, and they send them overseas. I am just 
completely baffled--with no showing of a parent that is not 
able to provide for them here in the United States.
    So then when they are taken we would like at least the 
Goldman Law to step in and give some equality, some equal 
playing field. So it would be very helpful.
    I think what we need to do is to really hear from all the 
agencies--the State Department is certainly working but you are 
collaborating with the Department of Justice, Homeland 
Security, to a certain extent some of the local law enforcement 
to understand that the law is in place and the law can be 
useful to save some of these individuals, which I would like to 
see.
    So if we could get both of those numbers it may be helpful 
to this committee and the chairman and then we might be able to 
again look at our other agencies and how they can be--how they 
can be helpful in collaborating to bring some of these children 
home.
    And I don't know, as I close--Secretary Bond, do you have 
any recent examples of success--whether you call it Case A or 
B--do you have an example of the reuniting of children that 
have been abducted, brought home to the United States?
    Ambassador Bond. Oh, absolutely. There--in terms of what 
you were speaking to just a moment ago about the interagency 
work including the FBI, a lot of that is focused on prevention.
    Discussions of what more we might be able to do to inform 
parents who may be at risk for this sort of thing to make sure 
they know what steps they need to take to protect their 
children and also to ensure that there is a coordinated 
response if we get an indication that there is an abduction 
underway.
    That is a lot of that focus from the FBI and law 
enforcement and other--and other parts of the interagency 
working together. But there have been several hundred return.
    There are also--of course, we don't know how many cases 
where children were protected from abduction because of advice 
that their parents got by calling into our team or by reading 
the information that is on our Web site so that they would be 
aware of the fact, for example, that you can--you can register 
with passport services, the fact that even though we require 
for all minors both parents have to agree to the issuance of a 
passport, you can take the additional step of saying I want you 
to contact me personally if any application for my child is 
filed because I want to be sure that my spouse doesn't, you 
know, pretend to have a notarized document from me that is 
false. So we have that program and we have other programs that 
are available for people to ensure that their children are 
protected or flagged so that they won't be the victims of an 
abduction.
    But, of course, that doesn't help in every case.
    We have plenty of cases where the child travelled with both 
parents' knowledge and agreement because one parent didn't know 
what the other parent was planning. So----
    Ms. Jackson Lee. And that is where the abduction comes in, 
and that is the problems that we would like to solve. So, 
again, let me add a third request.
    If you have to protect the privacy but if a report could--
we could find a list that is either listed by number or 
something that says, you know, we returned this person from 
Kosovo to the United States.
    But I would like to see the list, to see that myself. Is it 
over a period of years or it is in the last year or----
    Ambassador Bond. We submit an annual report----
    Ms. Jackson Lee. Right, under the law.
    Ambassador Bond [continuing]. And it does include the 
statistics on the returns by country.
    Ms. Jackson Lee. And the most recent annual report was 
when? Was it----
    Ambassador Bond. It was issued in April.
    Ms. Jackson Lee. In April. If you are about to give to your 
other annual but I would like to--I would just like to ask for 
that report. I know it comes to Congress but I would like to--
--
    Ambassador Bond. We will make sure you get it.
    Ms. Jackson Lee [continuing]. Ask for it and if there is an 
updating between now and then I would appreciate that as well. 
Mr. Chairman, I could pursue a whole line of questioning but I 
would like to yield back. Thank you.
    Mr. Smith. Thank you so much.
    Ms. Jackson Lee. Thank you very much, Ms. Secretary.
    Mr. Smith. Can I just ask you--you know, Sheila Jackson 
Lee's questions prompted a question from me and that would be 
as you know Title 3 outlines or makes clear that there needs to 
be an interagency working group headed up by the secretary of 
state and it would include Homeland Security, Department of 
Justice and it would also work with Department of Defense.
    Has that interagency group met and what has been the 
outcome? How often do they meet?
    Ambassador Bond. So far, I believe they have met twice and 
in addition to the agencies that you have mentioned they also 
include now at the last most recent session the attorney 
general of Utah attended because they are also reaching out to 
the state level officials who would be in a position to 
contribute to a discussion of how can we get this done better--
how can we protect the kids. So those will be regularly held.
    Mr. Smith. This is the final question and then we will 
submit the rest for the record. But in June--at the June 
hearing sitting right where you are sitting was a woman, 
Edeanna Barbirou, from Tunisia.
    She has been trying to get her son, Eslam Chebbi, back home 
to the United States. She testified--her testimony was very, 
very riveted. She has won four court orders and yet she still 
has not gotten her son back.
    Secretary Kerry recently praised Tunisia for being an 
example of democracy and, again, despite these court orders she 
does not have her son back. What is the department doing to get 
her son back?
    Ambassador Bond. She is present here today, as a matter of 
fact, and we were chatting a few minutes ago. Of course, we are 
familiar with her situation.
    The--to be honest, I think, due to the privacy act I 
actually can't go into the details right now of what the 
current status of her case is.
    But we are very engaged on it and remain hopeful that we 
will be able to get him home. As you say, the courts have 
ordered his return several times.
    Mr. Smith. Thank you. And I will submit some additional 
questions and the members might do likewise. Thank you for your 
testimony.
    Ambassador Bond. Thank you.
    Mr. Smith. I would like to now invite panel two, being 
first with Mr. David Goldman, a father of a child abducted to 
Brazil. Mr. Goldman is father of Sean Goldman, who is here in 
the audience. He was born in Red Bank--Sean was, abducted to 
Brazil in 2004.
    Mr. Goldman spent the next 5\1/2\ arduous years, enormous 
amounts of time and financial resources and had a great number 
of people supporting him in the New Jersey community and really 
around the country to secure the return of his son.
    In December 2009, Christmas Eve to be exact, he actually 
got his son back and flew back to the United States and what a 
great reunion that was, not just for David but for his entire 
family.
    We thank him for the work that he has done not just for 
himself but the Bring Sean Home Foundation and the other work 
he has done. He has been a shining example of what can be when 
the levers of government, the private sector, the media, all 
work in concert to bring about justice and a--in this case, a 
much needed family reunification.
    We will then hear from U.S. Navy Captain Paul Toland, who 
has been fighting for access to and return of his daughter 
Erika since 2003.
    Captain Toland--she was abducted, I should say, as an 
infant from a Navy family housing in Japan. Captain Toland has 
been the sole surviving parent since 2007 when Erika's mother 
died. But still has been prevented from unification with his 
daughter who is living with her grandmother.
    Captain Toland recently launched a new legal effort in 
Japan's courts calling on the courts to recognize the 
fundamental human rights of a biological parent to have access 
to his or her child.
    He is the co-founder and national director of Back Home, a 
nonprofit organization dedicated to the immediate return of 
internationally abducted children who have been wrongfully 
detained, especially in Japan.
    I would like begin with Mr. Goldman and then go to Captain 
Toland.

STATEMENT OF MR. DAVID GOLDMAN, CO-FOUNDER AND DIRECTOR, BRING 
   SEAN HOME FOUNDATION (FATHER OF CHILD ABDUCTED TO BRAZIL)

    Mr. Goldman. Thank you, Mr. Chairman and Mr. Meadows and 
Ms. Jackson. It is wonderful that you are here to support this. 
I know Mr. Meadows has been here on a few of these hearings and 
we appreciate that.
    I would like to just start before I go into my actually 
testimony, and all these hearings that I attend and some 
participate in I do keep hearing about the quiet diplomacy, and 
I always wonder, like, the questions that you ask, instead of 
deflecting them what is the real reason that they won't use the 
tools in the toolbox?
    What is it? Just come clean. We don't believe in it. It is 
against what we stand for. I always thought it would just be 
against--they are more concerned about their bilateral 
relations than the 100 children in this country, the 200 
children in this country--they are more worried about trade, 
they are more worried about arms, they are more worried about 
drug smuggling, border control in certain countries.
    But why can't they just basically come clean and say what 
is the reason they won't use the tools in the tool box that 
they need, that they wanted? I just listened and we talk about 
Brazil.
    They have acceded to the Hague Convention in 2004 and they 
are always on noncompliance. They just said nine times 
consecutively noncompliant. When is it time to use the tools? 
Does it take 9 years? Some child who is kidnapped at 9 is now 
an 18-year-old. They're a grownup. They are not a child 
anymore. That goes in complete contra Hague Convention, what it 
stands for.
    Nine times and they are noncompliant and that does show 
that quiet diplomacy in that case doesn't work. And as you 
said, a 27-percent return rate from Germany, to me doesn't seem 
very successful.
    But I diverged because those are just points that I just 
hear every time. So I was--I will give you a brief history of 
my case. For 5\1/2\ years I was a left-behind parent. I did 
live in a world of despondency and desperation with a searing 
pain through my entire being.
    Everywhere I turned I saw an image of my abducted child. 
Sleep was hard to come by. It was never restful. If I smiled I 
did feel guilt.
    When I saw children, whether it was in the store, a park, 
on television or on my charter boat, where clients often take 
their families for day on the water, it was more than painful.
    For the longest time it was too painful to be around my own 
nieces and nephews. I was wondering--I wanted to be and where 
was my son. Where was my child?
    He had been abducted. He had been illegally held. He was 
being psychologically, emotionally and mentally abused. I 
needed to help him but I was helpless. I needed to save him. He 
needed me, his father.
    It was our legal, our moral, our God-given right to be 
together as parent and child. I did everything humanly possible 
leaving no stone unturned when for many years the result 
remained the same. My son, Sean, was not home.
    There were court orders in place--many court orders from 
the U.S. demanding the immediate return of my child. The 
courts, as you pointed out, Mr. Chairman, acknowledged that my 
son had been held in violation of U.S. and international law.
    However, he remained in the possession of his abductors. 
Why were so many laws being ignored? Why were the abductors and 
in my case, the Government of Brazil, allowed to flagrantly 
violate international law without consequence?
    Why were my child and over 50 other American children still 
in Brazil, another plus in Mexico and thousands of other 
American children also held illegally in other countries in 
clear violation of the Hague Convention on the civil aspects of 
international child abduction?
    It would take 4\1/2\ years, numerous court hearings, 
extraordinary work from my attorneys in Brazil and the U.S. and 
a tremendous amount of political pressure applied publically 
and internationally in House and Senate and State resolutions 
for me to finally be able to visit my abducted son for a few 
short periods of time.
    It took Congressman Smith traveling to Brazil with me. It 
took Senator Lautenberg holding up a trade bill that would have 
given Brazil nearly $3 billion of trade preferences for my son 
to come home.
    So as I prepared today's hearing, I began to review my own 
testimony from previous hearings as well as testimony of others 
who had given powerful and moving accounts of their own 
experiences with this issue.
    In past, what was obvious was that our Government lacked 
the tools they so desperately needed to bring abducted American 
children home.
    That is not the issue any longer. It has been over a year 
now since President Obama signed the Goldman Act into law, and 
thank you, Mr. Chairman, for authoring that legislation. It is 
much needed and I hope we can use it.
    I hope our Government uses it. I beg, I plead on behalf of 
all these other left-behind parents and families and grandmas 
and cousins and nieces and nephews and the community that they 
were ripped away from that we use the tools to get these 
children home. It provides our Government with a number of 
options to persuade countries to return abducted American 
children.
    One of our first duties of government is to protect its 
citizens and the Goldman Act does just that. We no longer need 
one senator. Important. We no longer need one senator to hold 
the trade bill in which 131 countries would see tariffs on 
their imports to the U.S. rise sharply and billions of dollars 
of their trade disrupted.
    The Goldman Act is designed to work country to country--on 
a country to country basis and may impose punitive measures 
against individual nations harboring abducted American 
children.
    And I go to the press release--there can be no safe havens 
for abductors. That was released yesterday by Secretary Kerry. 
Point in case--let's take action.
    We need not--our Government needs not be so concerned about 
upsetting a country that harbors child abductions of American 
citizen children. We must demand their return. We are not 
asking for any favors.
    We are expecting the rule of law to be followed and if it 
isn't then let them see there are tangible consequences. And 
when we do, and hopefully we will use some of these powerful 
tools, stronger tools, they are not permanent. They send the 
children home and whatever penalty, whatever punitive measures 
they face may be lifted.
    It doesn't mean it's forever. But let's make a statement 
and if they get angry at us--how can we be concerned a country 
being angry at us for demanding our American children home? 
These are our citizens. It is our duty to protect them. We 
can't be concerned if they are going to get angry at us for 
demanding the return as they would their own.
    It's intended to work side by side with the Hague 
Convention on the civil aspects of international child 
abduction, ensuring countries honor their treaty obligations, 
and this way the Goldman Act almost acts like a bodyguard to 
the treaty, protecting it and ensuring that it is followed as 
it was intended.
    It took several years and several markups before becoming 
law and we now have the ability to help bring home this 
country's abducted children with both Hague signatory countries 
as well as non-Hague countries.
    I would just quickly like to address the criminal approach. 
We talked about Department of Justice. And in my case as well 
as most cases, the first instincts are to pursue criminal 
remedies--go to the police, hunt down the abductors and hope 
for a return of the child through law enforcement. I understand 
and sympathize with that approach and that was in fact my first 
instinct.
    But I do think that approach adds another layer of 
complexities to the process. What the Hague treaty does in 
simple terms is put a signatory country--it puts all signatory 
countries in agreement on how the issue of international child 
abduction should be resolved without complicating it on the 
basis of cultural and domestic laws.
    Essentially, there are two extremely important issues that 
arise from criminal proceedings and demand from extraditions of 
child abductors.
    Domestic courts will often refuse the return of an abducted 
child, knowing that the taking parent will face criminal 
prosecution by coming back to the country where the child was 
abducted from and many countries it is in their constitution--
they just simply will not extradite one of their own citizens.
    And even if they do extradite one of their own citizens, so 
you got the abductor back but the child is still over there.
    It just adds a whole other layer of complexities and that 
is why the basis of the Hague Convention is on the civil 
aspects and that is why the tools of the Goldman Act are civil 
actions.
    And as we also talked about, with regard to the Hague 
Convention itself, there are two areas which are most often 
abused by foreign judges when deciding these cases.
    One is in Article 11 about the judicial administrative 
authorities shall expeditiously in proceedings so act 
expeditiously to return the children and if they don't reach 
that decision within 6 weeks of the date of commencement of the 
proceedings the applicant or the central authority of the 
requested state on its own initiative or if asked by the 
central authority of the requested state shall have the right 
to request a statement for the reasons of the delay.
    So, clearly, the spirit of the convention is to have these 
cases handled swiftly so that there is little disruption as 
possible in the life of a child.
    We all know that is not what happens. Most of the time when 
Americans are abducted because of the endless legal delays 
resulting from motions filed by the abducting parents the 
convention's intent is thwarted and the spirit of the 
convention is lost.
    And, as an example, they use Article 13(b) about you don't 
have to return a child if the court where the child was 
abducted says there is going to be grave risk or harm to return 
the child.
    So what they do is they interpret these legal delays and 
proceedings as the grounds for denying the return of a child 
based on the assumption that the passage of time somehow 
eliminates the urgency of returning that child to their home 
country of habitual residence. Because of their own slow 
judicial process they say it is now going to disrupt the abduct 
child to return them, thus rewarding the kidnapper.
    As Congressman Smith mentioned, that case in Brazil, which 
is going on right now, they actually denied Chris Brann's--Dr. 
Brann, who I take a side note, is a internist. He works at 
Baylor University in Texas.
    He dedicated his life to helping others yet he can't help 
his own child. He can't nurture and help and be with his own 
child.
    Someone whose calling in life is to help heal, he can't 
even participate in his own child's life and the pain he is 
experiencing as well as all the other parents is just 
tremendous and devastating there really are no true words to 
imagine the level of despair that these parents suffer every 
day.
    But they--in this case the judge cited, in Chris' case, the 
denial of my son because of the passage of time and the well 
settled issue. They denied the return of his son, citing my 
case. I was floored when I realized that, when I read that.
    This judge that decided his case must have never read the 
news, seen the television or looked at a legal precedence 
because my son is home and he's been home for nearly 6 years. 
So for her to cite that case is just showing that they are 
looking at any reason to not return children.
    Another example in Brazil, and this is about the 
enforcement issue, so now we have one judge just denying the 
return in a blatant disregard for the law. Another case is 
Nadia Davenport.
    It's been more than 7 years since Devon Davenport's baby 
daughter was abducted from North Carolina to Brazil and he has 
fought admirably to bring his daughter home and he has even 
testified before this same committee last year making an 
impassioned plea for help.
    The Brazilian court has ordered his daughter, Nadia, home 
and all legitimate appeals have been exhausted. Yet, nearly 2 
years have passed since that decision without enforcement of 
the return and Nadia remains in Brazil illegally and Devon 
Davenport is not closer to being with his child.
    So we have a country noncompliant for nine times. When they 
do get a judicial order it doesn't get carried out if they do 
get a judicial order.
    There is no country that's screams, that is a member of the 
Hague for this long, to try your quiet diplomacy, to use the 
tools and these parents, like so many others, suffer so much. 
It is beyond words to describe and I know because I was one of 
them. I did feel like a dead man walking--lifeless, struggling 
day to day to get through the most meaningless tasks.
    I am now so fortunate to be on the other side, having been 
reunited with my son, and to my knowledge, to answer a couple 
of your questions, Sean--my son, Sean Goldman--is the only 
American child ever to be returned from Brazil to America under 
a court order under the provisions of the Hague Convention.
    So you asked the question. That's the answer. My son is the 
only child ever to be returned from Brazil to America under 
provisions of a court order under the Hague Convention and they 
have been acceded to the treaty since 2004.
    We are lucky. We can't recover the years we have lost but 
we can enjoy our time now. We can live as parent and child. I 
can watch him grow and evolve and become a young adult.
    We can interact with each other, participating, educating, 
encouraging and disciplining as a parent should be able to do 
with their own child. And so many other left-behind parents 
were given hope and, painfully, celebrated my son's return 
without their own children at their side.
    And please don't allow their hope to be a cruel and 
anguishing false hope that their children may one day come 
home. Accompanying me to this hearing today are my son and 
stepson, Sean, and his stepbrother, Jesse. They are brothers 
and good buddies, and Sean can grow up as a normal boy with 
family and friends like it was intended.
    I was able to assume my role as his father and he as my 
son. It is our legal and God-given right to be father and son. 
And next to me is Captain Paul Toland. The empty chair behind 
him awaits for his abducted daughter, Erika.
    It is this government's duty to protect its citizens, to 
protect the rights of Erika and allow her to come home to 
America and grow up on the care of her father, her only living 
parent.
    The tools are in place. Please use them. Help Paul reunite 
with Erika. Please help these suffering mothers and fathers 
reunite with their abducted American children. Our country is 
about keeping families together and they desperately need your 
help.
    Paul needs your help. We have the tools. Let's use them.
    [The prepared statement of Mr. Goldman follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         
                                  ----------                              

    Mr. Smith. Mr. Goldman, thank you so very much for that 
very passionate, well informed, articulate--not only telling 
your own story but your concern for all of the other left-
behind parents.
    And with that, I'd like to yield to Captain Paul Toland.

STATEMENT OF CAPTAIN PAUL TOLAND, USN, CO-FOUNDER AND NATIONAL 
    DIRECTOR, BRING ABDUCTED CHILDREN HOME (FATHER OF CHILD 
                       ABDUCTED TO JAPAN)

    CAPT Toland. Thank you, and thank you, David, for that 
touching speech.
    Congressman Smith, Congressman Meadows, Congresswoman 
Jackson Lee and other members of this committee, thank you for 
allowing me the opportunity to speak today about the scourge of 
international parental child abduction, specifically with 
regard to the country of Japan.
    I am here today to explain to you why punitive measures up 
to and including sanctions may soon be the only viable option 
that will bring about the change necessary within Japan to 
comply with the Hague Convention and the Goldman Act.
    My name is Paul Toland. I'm a captain in the United States 
Navy with over 26 years of active military service. I am the 
co-founder and director of Bring Abducted Children Home.
    My daughter Erika was abducted off the U.S. Navy housing in 
Japan over 12 years ago. In 2007, my wife, Etsuko, committed 
suicide and since that time Erika has been wrongfully retained 
in Japan by her grandmother Akiko Futagi.
    I was recently in Japan, where I filed through their family 
court system for physical custody of Erika. Japan signed the 
Hague Convention in 2014 but abduction cases like mine that 
transpired before Japan's ratification of the Hague are not 
eligible for returns under the Hague. So I am utilizing the 
Japanese system to see if they will in fact respect the rights 
of a parent over a nonparent and provide custody to me, Erika's 
only living parent.
    Yes, Akiko Futagi is a grandparent to Erika Toland. But 
that also means she is not a parent. Under law in most 
countries she would have no right to keep my child away from me 
and yet to this day she has been allowed to keep Erika away 
from me without allowing so much as a phone call in 8 painful 
years.
    In most countries with modern family law systems this 
abduction and denial of access to a parent would be perceived 
no differently than if a stranger abducted a child and it would 
be a felony crime.
    But in Japan, abduction by a nonparent relative is not only 
accepted, it is condoned. I am the only parent in the world to 
Erika, yet every day I have no idea if she is sick or injured.
    I have no idea if she is safe or in danger. I have not even 
been offered a single photo of my beloved daughter in the 8 
years since the grandmother has held her, let alone a visit or 
a walk in the park together or the opportunity to say happy 
birthday even once.
    Historically, Japan has stood alone in the modern world as 
a notorious haven for child abduction and is still considered a 
black hole from abduction from which no child ever returns.
    The Japanese Government has never enforced the return of a 
single abducted child including over 400 American children 
abducted to Japan since 1994.
    But recently there has been some hope for change in Japan. 
Japan has signed the Hague Convention and many Japanese 
politicians are speaking openly about changing Japan's views on 
parental abduction and shared custody between parents after 
divorce.
    Those inside and outside Japan who want Japan to change and 
become a modern country in regard to parental rights see my 
case as an opportunity for Japan to prove to the rest of the 
world that it is changing and that Japan is moving forward 
toward joining the rest of the developed nations of the world.
    For Japan to prove this to the rest of the world, we fully 
expect that the Japanese court will both order and enforce the 
return of Erika Toland to me, her father and only living 
parent.
    The judge's ruling in this case will be a reflection of the 
entire Japanese Government and the entire nation of Japan. 
There could be no clearer case than this case for Japan to 
demonstrate that it has at least a very basic and rudimentary 
understanding of its responsibilities toward parents and 
children.
    How can we expect Japan to ever resolve more complicated 
divorce and child custody issues if it cannot even resolve this 
very straightforward case where one parent is deceased and a 
nonparent is withholding the child from a loving parent who 
wants to care for her?
    The U.S. Supreme Court has found that, and I quote, ``the 
interest of parents in the care, custody and control of their 
children is perhaps the oldest of the fundamental liberty 
interests.''
    The U.S. Supreme Court has further ruled that it is 
cardinal that the custody, care and nurture of the child reside 
first in the parents and that same court has held that the 
relationship between parent and child is constitutionally 
protected.
    As in U.S. courts, the rest of the modern developed world 
would never tolerate a custody battle between a parent and a 
nonparent.
    In civilized countries the automatic presumption of the 
court would be that the best interest of a child is to be 
raised by her parents, not some other more distant relative or 
stranger.
    A parent does not have the burden of proving that he or she 
can raise the child better than a nonparent. If Japan rules, as 
it should in favor of my daughter's right to know and love her 
father, then it would truly be a threshold step for Japan and 
Japan would be closer to joining the rest of the international 
community as a nation that respects the basic fundamental bond 
between parent and child.
    However, after attending family court in Japan last month, 
I came to a single conclusion regarding the Japanese family law 
system. Nothing has changed.
    That is right. The court system is no different than it was 
10 years ago. The courts still have no mechanism of 
enforcement. The courts still drag cases out over many months 
to run out the clock and judges simply find a way to maintain 
the status quo.
    In my clear-cut and unambiguous case, I have endured three 
court dates over the course of 8 months with another court date 
set for December and no end in sight.
    Signing the Hague was simply a smokescreen devised by Japan 
to relieve international pressure. The Japanese Ministry of 
Foreign Affairs knows this. They know that Japan's family court 
system is a completely broken mess and that is why they have 
done everything in their power to keep Hague actions out of 
their court system and instead attempt to resolve cases through 
mediation and provide access via monitored video conferencing 
between victimized parents and children.
    These efforts have all been dismal failures. Why would an 
abductor want to mediate knowing that he or she can withhold a 
child without consequence? All they need to say is no and there 
is nothing that the Japanese Government will do about it.
    Other recent signatories of the Hague such as Korea have 
made necessary reforms to their family law system but Japan 
simply refuses to do so and because of this they can never be 
compliant with the Hague. It is literally impossible.
    So what are we to do about it? How will Japan make the 
changes it needs to join the rest of the global community? I 
and everyone who has been associated with this issue for years 
have come to a single conclusion--foreign pressure. Yes, that 
is the only solution that can bring about change within Japan.
    Real changes to human rights issues in Japan are rarely if 
ever accomplished internally. Instead, it is almost exclusively 
foreign pressure that elicits change in Japan. Take child 
pornography as an example.
    For years and years, Japan openly allowed possession of 
child pornography and did nothing about it. It was only intense 
and continued foreign pressure that compelled Japan to make the 
changes necessary to join the rest of the civilized world in 
this area.
    Likewise, it will only be constant and intense foreign 
pressure that will bring about the required changes in family 
law that will allow Japan to comply with the Goldman Act and 
the Hague Convention. The State Department has been completely 
remiss in applying foreign pressure to Japan or demanding the 
return of any of the 400 children kidnapped to Japan since 
1994.
    They have instead actively tried to cover up for Japan's 
noncompliance with no regard whatsoever to the suffering of 
countless American parents and children.
    If Japan rules against me and demonstrates that it cannot 
and will not protect the fundamental bond between parent and 
child and the inherent rights of parents and if Japan continues 
to deny access to parents under the Hague and fails to return 
abducted children under the Hague, I ask for punitive measures 
up to and including sanctions under the Goldman Act.
    Why do you think Brazil returned Sean Goldman? It was 
because of the threat of sanctions. As David just alluded to, 
holding up that trade bill--that is what really hit home. And 
then after Sean was returned--thank God he was returned--then 
the pressure was relieved. They were no longer holding up the 
trade bill and no more children were returned.
    That speaks for itself. Sanctions represent a real 
expenditure of political capital on behalf of the United 
States.
    I once told a high ranking State Department official that 
our children could be returned in 1 year if the United States 
Government was willing to expend real political capital on 
behalf of our children.
    If a governor or some famous celebrity's child were 
abducted overseas you can bet our Government would expend every 
resource possible to ensure the return of these children--their 
children.
    But the sad reality is that our children are simply not 
important enough for the American Government to expend the 
political capital necessary to return them.
    Additionally, if Japan cannot protect the fundamental bond 
between parent and child and the inherent rights of parents, 
then no American families are safe in Japan including military 
families.
    If our military families' members and their families 
stationed in Japan can lose their children so easily in 
violation of our constitutional protections, then the military 
will need to rethink its policy of allowing family members to 
accompany their military sponsor to Japan.
    Ever since Erika was stolen from me over 12 years ago, my 
only desire in the world and everything I have worked for has 
been done with one goal in mind--to be reunited with Erika so 
she can know and love her only father and so I can know and 
love my only child. That goal has never changed and it never 
will.
    I have heard some people from Japan say, ``Why would you 
want to take Erika away from her home in Japan?'' Well, to that 
I say Japan is not necessarily her rightful home. It is not 
even necessarily the United States. A child's home is with her 
parents no matter where that may be, and that means that no 
matter where I may reside Erika's home is and always will be 
with me.
    True, it's a fact that she's 13 years old now and she may 
not want to come to America, and if that's the case she and I 
will work that out together. I will ensure that I have the best 
team of reunification experts and medical professionals to help 
us through these times. Japan expeditiously ruling in my favor 
will sanctify the sacred bond between parent and child.
    Japan expeditiously ruling in my favor will be a 
recognition that these difficult issues regarding Erika's 
future are issues that she and I must face together and it will 
also recognize that neither the state of Japan nor a more 
distant nonparent relative will come between the sacred bond of 
parent and child.
    However, if Japan rules against me and violates this 
fundamental bond between parent and child and continue their 
pattern of denying access to parents of abducted children and 
fail to expeditiously return abducted children under the Hague 
Convention, I once again ask that punitive actions be taken by 
the U.S. Government to include sanctions under the Goldman Act. 
Only foreign pressure will resolve this situation and that 
foreign pressure starts right here in this room.
    Thank you.
    [The prepared statement of CAPT Toland follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
                              ----------                              

    Mr. Smith. Captain Toland, thank you so very, very much. 
Again, an extraordinarily eloquent statement, an expression of 
a father's love for his daughter, Erika.
    And I can assure you that this subcommittee and Mark 
Meadows and other members of the committee are steadfast. We 
will be unceasing in our efforts to try to get your child home, 
the other children who have been abducted and to use the 
Goldman Act as it was intended--to use it.
    Words are cheap in this town and, you know, I have been 
here 35 years now and I can tell you far too often people make 
these statements.
    Secretary Kerry made a very find statement yesterday that 
all the tools will be employed and used. Well, they have to be 
and Ambassador Bond did not make clear whether or not even now 
with the gap that they had in the original report that Japan, 
with its 50 plus cases and even those post-Hague not being 
resolved either, would be designated as a pattern--as a country 
with a pattern of noncompliance and that is very deeply 
disappointing. And I think your point about the Hague being a 
smokescreen, never more truer words were ever spoken.
    Now, it may have a positive ameliorative effect going 
forward. But as we argued right from the get-go when this 
administration are doing the same--it is like deja vu all over 
again, to quote Yogi Bera--it is--they are just committing the 
same act vis-a-vis India with all the 75 cases that are 
unresolved. So I can assure you we are going to do everything 
we can to keep the pressure on.
    I will initiate a letter. Hopefully we will get members of 
the House and the Senate to sign it, to the President--that the 
G-7 meeting that will be held--the 42nd G-7 summit on May 26th 
or 27th in Shima, Japan, with Japan hosting, of course, that 
your case and the cases of other left-behind parents, and other 
countries do have similar situations.
    So my hope is that they will too rally. I remember meeting 
with Ambassadors from other nations, mostly European nations, 
that had a very similar track record of not having their left-
behind children brought back to their families as well and 
their parents.
    We do have 30 minutes or so of votes. If there is anything 
you would like to add--both of your statements were 
extraordinarily eloquent. Ambassador Bond's statements today--
did it give you any hope?
    Frankly, I was concerned by a lack of commitment to using 
the tools other than saying we'll use all tools--everything is 
on the table.
    But until you start sanctioning and having--as one of our 
colleagues said earlier, until you really start really saying 
we're not kidding, they will think these are mere words and 
admonishments rather than actions that have penalties and 
consequences. So if you'd like to add anything, you know, 
please do at this point and then we will conclude the hearing.
    CAPT Toland. Congressman Smith, I would just like to add 
one thing on behalf of a number of other parents that I'm 
associated with.
    We are currently--me and a number of other parents are 
seeing our kids that were abducted at a young age moving into 
their teenage years now and we are hearing the same thing over 
and over from the abductors--the child does not want to see 
their parent, and this is from the abductor saying this, not 
necessarily the children.
    This is happening--I will say it--I am hearing this from--
regarding my daughter Erika as well as Randy Collins hearing it 
about his son, Keisuke, Chris Savoie hearing it about his 
children, Isaac and Rebecca.
    We don't know if these children are really saying this or 
if the kidnappers are simply saying this as a last ditch 
effort.
    But what we do know is that these children were kidnapped 
at a very young age and brainwashed for many years. 
Unfortunately, these children will never heal from the 
psychological damage that their kidnapping parent inflicted 
upon them.
    But our hope is that in a few more years these victimized 
children will realize that most of their life was a lie and we 
pray that they will come to know and love us, the parent that 
they were taken from.
    Thank you.
    Mr. Goldman. I am still wondering where is that disconnect. 
Why doesn't the State Department come out and say why they 
don't want to use these tools.
    I have yet to hear a legitimate reason, just sort of 
deflections. Secretary Bond, she was an advocate in my son's 
return. She spoke adamantly on national television.
    She's got the tools. She knows--they all know what it 
takes. They do have their hearts in the right places. They do 
work long hard hours.
    But they have this right at their fingertips, which can 
make a difference, and if used against the worst offenders 
it'll send a message to the other countries.
    And they are not permanent tools. Once they are invoked 
they can be--you send the kids home, that penalty is removed. 
But knowing that it's there and knowing we will use it will 
make all the difference in the world.
    And I still am wondering--I don't hear an answer why after 
9 years and only one child ever to be returned under provisions 
of the Hague Convention by way of court order they don't want 
to open up every tool, every--and use every tool in their tool 
box to get the kids out of Brazil specifically and also India, 
Japan--these countries that aren't Hague countries can use the 
same tools, and that is one of the questions that I still have 
never heard an answer from.
    Thank you, Mr. Chairman. I know you have----
    Mr. Smith. We are out of time.
    Without objection, a Washington Post editorial from August 
12th will be made part of the record and it cites Jeffrey 
Morehouse, who is here with us today, and without objection be 
made a part of the record.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 1:37 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               
                               
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
                    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  

                               __________
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
